TROUTMAN LAW OFFICE, PLLC
4205 Springhurst Boulevard, Suite 201
Louisville, Kentucky 40242
(502) 412-9190
J. GREGORY TROUTMAN
Attorney-at-Law
E-MAIL: jgtatty@yahoo.com

Of Counsel to:
Johnson, Cook, Abbott & Ahrens, PLLC.

Admitted: Kentucky State Courts
United States District Courts, Eastern and Western Districts of Kentucky
United States District Court, Southern District of Indiana
United States Court of Federal Claims
United States Courts of Appeals, Sixth and Seventh Circuits
United States Tax Court
United States Supreme Court

March 11, 2021

VIA ELECTRONIC FILING
Mr. Scott Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

MarySusan Ward v. Louisville Metro Government, Case No. 20-1262

Dear Mr. Harris:
I am co-counsel for Petitioner MarySusan Ward in the above-referenced matter.
In accordance with Rule 37.2(a) of the Rules of the Supreme Court of the United States,
Petitioner hereby grants blanket consent to the filing of amicus curiae briefs in this matter.
Thank you.
Sincerely,

J. Gregory Troutman
cc:

John D. Ogburn, Counsel for Respondent (denis.ogburn@louisvilleky.gov)
Patricia C. Le Meur, Counsel for Respondent (tlemeur@ppoalaw.com)

